831

f;

RELATED CASES NOs: 20-6136 and 18-8903

3fn tf)e

Supreme Court of tfje fimtet) States

Supre

™sru$- t 2021

OfRCEOF

OWEN W. BARNABY — PETITIONER
VS.
BRET WITKOWSKI, et al., — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT IN THE STATE OF
MICHIGAN

PETITION FOR A WRIT OF CERTIORARI
Owen W. Bamaby
PO Box 1926
Kennesaw, GA 30156
(678)382-4183

Date May 31, 2021

RECEIVED
jUN VO Wfl

1

1!Mclerk

QUESTIONS PRESENTED
This United States Supreme Court and Michigan Supreme
Court are clear >n unauthorized practice of law and void judgment
and Order. The US Supreme Court emphatically articulated in,
Rowland v. Calif. Men’s Colony, 506 U.S. 194, 201-203 (1993).
It has been the law for the better part of two centuries . . . that
a corporation may appear in the federal courts only through licensed
counsel. Osborn v. President of Bank of United States, 9 Wheat.
738, 829, 6 L.Ed. 204 (1824); see Turner v. American Bar Assn.,
407 F.Supp. 451, 476 (ND Tex. 1975) (citing the “long line of
cases” from 1824 to the present holding that a corporation may only
be represented by licensed counsel), affirmance order sub nom.
Taylor v. Montgomery, 539 F.2d 715 (Table) (CA7 1976), and affd
sub nom. Pilla v. American Bar Assn., 542 F.2d 56 (CA8 1976)....
Michigan law prohibits the unauthorized practice of law by
individuals MCL 600.916 and MCL 450.681.
Sec. 916. (1) A person shall not practice law or engage in the
law business, shall not in any manner whatsoever lead others
to believe that he or she is authorized to practice law or to
engage in the law business, and shall not in any manner
whatsoever represent or designate himself or herself as an
attorney and counselor, attorney at law, or lawyer, unless the
person is regularly licensed and authorized to practice law in
this state. A person who violates this section is guilty of
contempt of the Supreme Court and of the circuit court of the
county in which the violation occurred, and upon conviction
is punishable as provided by law. Also, MCR 2.612(C) (1)
(d), (e), (f) and MCR 2.612(C), (3)
MCL 450 681. It shall be unlawful for any corporation or
voluntary issociation to practice or appear as an attomey-atlaw for any person other than itself in any court in this state or
in

before any judicial body, or to make it a business to practice
as an attorney-at-law, for any person other than itself^.] . . .
But no corporation shall be permitted to render any services
which cannot lawfully be rendered by a person not admitted
to practice law in this state nor to solicit directly or indirectly
professional employment for a lawyer.
Furthermore, both Courts are in agreement that Judgment and
Orders are void and all times and does if court that rendered
judgment lacked jurisdiction of the subject matter, or of the parties,
or acted in a mn mer inconsistent with due process, Fed Rules Civ.
Proc., Rule 60(b)(4), 28 U.S.C.A.; U.S.C.A. Const Amend. 5.
Klugh v. U.S., 620 F.Supp. 892 (D.S.C. 1985). Milliken v. Meyer,
311 U.S. 457, 61 S.Ct. 339, 85 L.Ed. 2d 278 (1940)...or lacks
inherent power to enter the particular judgment, or an order procured
by fraud, can be attacked at any time, in any court, either directly or
collaterally.
“Fraud upon the court” makes void the orders and judgments
of that coiirt. The U.S. Supreme Court has consistently held
that a void order is void at all times, does not have to be
reversed or vacated by a judge, cannot be made valid by any
judge, nor does it gain validity by the passage of time. The
order is void ab initio. Vallely v. Northern Fire & Marine Ins.
Co., 254 U.S. 348, 41 S.Ct. 116 (1920). “Fraud destroys the
validity of everything into which it enters,” Nudd v. Burrows
(1875), 91 US 426,23 Led 286,290; particularly when “a
judge himself is a party to the fraud,” Cone v. Harris (Okl.
1924), 230 P. 721, 723. Windsor v. McVeigh (1876), 93 US
276, 23 Led 914, 918.

IV

"void judgment, as we all know, grounds no rights, forms no
defense to actions taken thereunder, and is vulnerable to any
manner of collateral attack (thus here, by). No statute of
limitations or repose runs on its holdings, the matters thought
to be sett! - d thereby are not res judicata, and years later, when
the memories may have grown dim and rights long been
regarded as vested, [any disgruntled litigant may reopen old
wound and once more probe its depths. And it is then as
though trial and adjudication had never been.” Fritts v.
Krugh, Supreme Court of Michigan, 92 N.W.2d 604, 354
Mich. 97(10/13/58)
The Sixth Circuit Court of Appeals in an Opinion dated February 17, 2017 reversed the
United States District Court for the Western District of Michigan granting Summary disposition
to Appellee on the Rooker-Feldman doctrine, finds that, Appellee a third party harm Appellant
and contravened Michigan Laws. See, provisions of the Michigan General Property Tax Act
MCL 211.78, MCL 600.916 and MCL 450.681. See, Federal Sixth Circuit court findings on
Case: 16-1207 Doc iment: 14-2 Filed: 02/17/2017 Pages 1-4. “The state court held a hearing on
the motion, at which it recognized that the defendants had in fact sold Bamaby’s property
without first obtaining a foreclosure judgment on the property, which contravened Michigan
law”. Hostile, Appellees stolen and sold the property (ies) on July 20,2010 deeded it to a new
owner on August 16, 2010, without state court’s judgment1.

1 As such Appellant has yet to get is due process Rights neither in State Court nor Federal Court.

Therefore, the questions presented are:
Why should Judge Butzbaugh’s August 18, 2010, Linchpin Foreclosure
Judgment Respondents procured by Fraud, Fraud upon the Court,
Unauthorized Practice of Law (MCL 600.916; MCL 450.681), that all the
other state court’s Orders are predicated upon, which is against Mr. Thomas
Bread and or Respondents, which is an imaginary Judgment against
Petitioner is able to violate Petitioner’s constitutional rights, according to the
issuance of Michigan State Court Judgment and Orders now before this
Your Honorable United States Supreme Court on Certiorari, be allowed to
continued'violates Petitioner’s constitutional rights; (US supreme Related
Cases NOs: 20-6136 and 18-8903)?
Given the new issue that the State Bar of Michigan’s action was a dereliction
of its duty “.. .because it does not appear to be a violation of the UPL statue,
MCL 600.916. as interpreted by the Michigan Supreme Court.
Consequently, the matter has been administratively closed.”; given to it by
this Your Honorable Michigan Supreme Court which governs the practice of
law and lawyers and has delegated the investigation and prosecution of
unauthorized practice of law complaints and the settled fact that the State
Bar of Michigan was presented with the evidence that, Non-Lawyer
Appellee-Witskowski confessed to unauthorized practice of law in
deposition, to reconsider Appellant’s Application for Leave to Appeal?
Appellant seeks reconsideration because of the clear conflict of interest of
the Honorable Bridget M. McCormack Chief Justice of Michigan Supreme
Court is the Chief Executive Officer of MCOA which is being Sued by
Appellant in Federal Court No. 20-CV-0232. Yet, Honorable Bridget M.
McCorma ik Chief Justice was among the other Justice who ruled denying
Appellant s Application for Leave to Appeal?
Appellant seeks clarification on Court’s Order denying application for leave
to appeal: (1), “.. .we are not persuaded that the questions presented should
be reviewed by this Court.”, (2), The Honorable Bridget M. McCormack
Chief Justice Conflict of interest. (3), State Bar of Michigan dereliction of its
duty. (4), If Appellant being a Non-Lawyer can start practice criminal law
by receiving clients MCL 450.681?

vi

Did Michigan State Court erred factually and legally and violated
Petitioner’s constitutional rights, when it failed to grant his ‘Emergency
Declaratory Motion to Declare Orders and Judgments Void and to Get Rid
of Them on Grounds of Unauthorized Practice of Law [UPL] and Void
Orders and Judgments”, as it has jurisdiction to do the same?

TABLE OF CONTENTS
OPINIONS BELOW.................................................................................
JURISDICTION........................................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.................................................................
REASONS FOR GRANTING THE WRIT..............................................
CONCLUSION.........................................................................................

1
.2
2.

3-9
9-19.
19

INDEX TO APPENDICES
Appendix A: Th ! Order of the Michigan Supreme Court.
Appendix B: Th „ Orders of the Michigan Court of Appeals
Appendix C: Michigan Supreme Court denial of a Timely motion for Rehearing.
Appendix D: The State Trial Court, Orders Case No. 09-000200-CZ.
Appendix E: Judge Butzbaugh’s August 18, 2010, Linchpin Foreclosure Judgment
against Mr. Thomas Bread and or Respondents, who was or were owner(s) of the
parcel on August 18, 2010, which proved an imaginary Judgment against Bamaby.

vu

NO.
RELATED CASES NOs: 20-6136 and 18-8903

3fn tfje

Supreme Court of tfje ®nitetr i£>tate£
OWEN W. BARNABY — PETITIONER
VS.
1 IRET WITKOWSKI, et al., — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

OPINIONS BELOW
The Order of the Michigan Supreme Court, ORDER Case No. 161387 is
printed and appears at Appendix A. The Orders Case No. 351723 of the Michigan
Court of Appeals Case No. 351723 is printed and appears at Appendix B. The
Michigan Supreme Court, Case No. 161387 denial of Timely Rehearing is printed
and appears at Appendix C. The State Trial Court, Orders Case No. 09-000200CZ are printed and appear at Appendix D and Appendix E. Appendix E is Judge
Butzbaugh’s August 18, 2010, Linchpin Foreclosure Judgment against Mr.
Thomas Bread £ ad or Respondents. As Respondents took ownership of Petitioner
property by theft, Defrauding him and without due process of law, etc.

1

JURISDICTION
The date on which the Michigan Supreme Court decided my case, was on
November 24, 2020. Furthermore, a timely petition for rehearing was denied by
the Michigan Supreme Courts on the March 2, 2021. The 90th day is Sunday May
30, 2021. As such Petitioner mail his petition on Tuesday June 1, 2021, as Monday
May 31, 2021, is the Memorial Day Holiday. The jurisdiction of this Court is
invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. Fourth, fifth and Fourteenth, Amendments
2. Civil Rights Acts of 42 U.SA. §1983 and Civil Rights Acts of 1866
3. Michigan foreclosure law General Property Tax Act, P.A. 206 of 1893,
amended (MCL 211.1 et seq.) (“GPTA”) and MCL 211.78a-l.
4. (MCL 600.916 and MCL 450.681),
5. Penal Cor e Act 328 of 1931 Section 750.217(c)
6. Rowland v. Calif. Men’s Colony, 506 U.S. 194, 201-203 (1993)
7. Nudd v. Burrows (1875), 91 US 426, 23 Led 286,290.
8. Fritts v. Krugh, Supreme Court of Michigan, 92 N.W.2d 604, 354 Mich. 97
(10/13/58)

2

STATEMENT OF THE CASE
[F]irst, firm March 01, 2010, to present, Respondents Berrien County
Government, and its Treasurer Witskowski continues to injure Petitioner by
unlawful conducts, inclusive of fraud, unauthorized practice of law, (UPL); stole
and sold Appellant’s Residential parcel without his consent nor court judgment or
order, State Trial Court, Orders Case No. 09-000200-CZ. And, on October 30,
2017, Respondents Berrien County Government, and its Treasurer Witskowski
confessed with ‘Quit Claim Deed’, that Appellant did not lose his parcel to state
court judgment but to Respondents’ unlawful conducts, Case No. 1:14-cv-01279,
Bamaby v. Witk jwski et al. But the Federal Courts overlooked the material
evidence of Respondents’ ‘Quit Claim Deed confession. The overlooked ‘Quit
Claim Deed’ confession proves, Judge Butzbaugh’s August 18, 2010, Linchpin
Foreclosure Judgment was against Mr. Thomas Bread and or Respondents, who
was or were owner(s) of the parcel on August 18, 2010, and is an imaginary
Judgment against Petitioner or Bamaby. Respondents injured Petitioner when they
unlawfully stole and sold Petitioner’s Residential Parcel to Mr. Thomas Bread
without Court Judgment and Quit Claim Deeded the Property to Mr. Thomas
Bread on AugusY 16, 2010; and continues to engage in fraudulent misconducts.
The Sixth Circuit Appellate Court twice found that Appellees Berrien
County Government and its Treasurer Witskowski injured Appellant, yet Petitioner

■3

or Appellant cannot get monetary relief he warrants because of these same State
Court’s Orders before this same United States Supreme Court on appeal. See,
Federal District Court Case No. l:14-cv-01279, Bamaby v. Witkowski et al; Sixth
Circuit, 16-1207; (the Sixth Circuitl8-1121and 18-1128, (U.S. Supreme Court, 188903k the (Sixth Circuit 19-1495; US Supreme Court 20-6136) and Case No.
1:20-cv-0232, Bamaby v. Mayfield et al; Sixth Circuit, 20-0232.
Although Bamaby acknowledges that he did not “lose” his property to
the state-c ourt judgments, his complaint maintains that it is the issuance of
the judgments themselves that has injured him. This case is thus different
from earlier litigation in which Bamaby sued the state actors who initiated
the foreclosure proceedings and then sold the property. There, the source of
the injury was not the state-court judgments, but the actions of the individual
defendants. In this case, Bamaby’s challenge to the defendant judges’
“issuance” of state-court orders and judgments is essentially a challenge to
the orders and judgments themselves. The district court did not err in
concluding that it lacked jurisdiction under the Rooker-Feldman doctrine.
(Case: 20-1564 Document: 23-2 Filed: 05/05/2021 Page: 4)
[Sjecond, Core issue, years later Appellee Non-Lawyer Witskowski
confessed in deposition that, Trial Judge Butzbaugh aided and abetted him in doing
unauthorized practice of law. Trial Judge Butzbaugh granted Non-Lawyer
Witskowski the Judgment arisen from the same UPL, confirmed and proves that
Judge Butzbaugh’s Judgment, August 18, 2010, Linchpin Foreclosure Judgment
was against Mr. Thomas Bread, who was or were owner(s) of the parcel on August
18, 2010, and is an imaginary Judgment against Bamaby.
16 Q. So explain to me what law would permit you to conduct
17
a foreclosure proceeding when you're not an attorney?
4

25
1
2
3
4

A. And the judge gave me the privilege of the opportunity
to represent the county.
Q. As an attorney?
A. I answered your question.
Q. Okay.
[T]hird, the Michigan foreclosure law General Property Tax Act, P.A. 206 of

1893, amended (MCL 211.1 et seq.) (“GPTA”) mandates that, the circuit court’s
hearing in the tax year of 2010 scheduled to be held, on March 01, 2010, before the
circuit court judge by a licensed attorney (MCL 600.916 and MCL 450.681),
followed by a final redemption period ending on March 31st of that year, It was
later amended to “a circuit court hearing in February, MCL 211.78a-l.
[Fjourth, after Petitioner’s Response to Respondents’ Answer, For
Application for Leave to Appeal on July 13, 2020, Appellant received answer from
‘State Bar of Michigan’ closed the case with Non-Lawyer Witskowski confession
in deposition thr. Judge Butzbaugh aided and abetted him in doing unauthorized
practice of law.

The ‘State Bar of Michigan’ was given the evidence of Non-

Lawyer Witskowski confession of his unauthorized practice of law.
Settled fact, Non-Lawyer Witskowski confessed in deposition that Judge
Butzbaugh aided and abetted him in doing unauthorized practice of law. Then,
Trial Judge Butzbaugh granted Non-Lawyer Witskowski Judgment which arise
from the same UPL, Exhibit A3.

5

Appellant did submit the proof of the UPL, yet ultimately the ‘State Bar of
Michigan’, concluded, UPL No: 19-up-79,
“The State Bar of Michigan Standing Committee on the Unauthorized
Practice of Law has considered the above-referenced matter based on the
complaint received by the State Bar of Michigan Unauthorized Practice of
Law department and the information gathered during its investigation. The
Unauthorized Practice of Law committee has recommended that the State
Bar of Michigan administratively close this matter because it does not
appear to be a violation of the UPL statue, MCL 600.916, as interpreted by
the Michigan Supreme Court. Consequently, the matter has been
administratively closed.”
But the State Bar of Michigan gave no factual nor legal demonstration of
how when and where the Michigan Supreme Court interpreted the UPL statue
MCL 600.916. The State Bar of Michigan action was a dereliction of its duty
“.. .because it does not appear to be a violation of the UPL statue, MCL 600.916,
as interpreted by the Michigan Supreme Court. Consequently, the matter has been
administratively closed.”; given to it by Michigan Supreme Court which governs
the practice of law and lawyers and has delegated the investigation and prosecution
of unauthorized practice of law complaints and the settled fact that the State Bar of
Michigan was presented with the evidence that, Non-Lawyer Appellee-Witskowski
confessed to unauthorized practice of law in deposition.
Appellant was talking with an Attorney who is both a member of the State
Bar of Michigan and an Officer of this Your Honorable Michigan Supreme Court.
The Attorney told Appellant, the fact that Appellant have sued Michigan Court of

6

Appeals, Hon. William Murphy, Hon. Jane Beckering, Hon. Joel Hoekstra, Hon.
David Sawyer, Hon. Mark Boonstra, and Hon. James Redford and the Trial Court
and its Judges and the fact that Chief Judge Butzbaugh was the president of State
Bar of Michigan, then asking the this Your Honorable Michigan Supreme Court to
rule in Appellant favor APPLICATION FOR LEAVE TO APPEAL will never be
a reality. The same attorney said that the Attorney has been practicing law for over
forty years, and hat Appellant’s persistence will be futile. Appellant’s response
was, “oh it’s like the police force, the blue wall of silence”. Settled Fact, the
‘Appellant in Pro Per’ was Naive of the same legal maneuvering.
The Federal Civil Rights Case No. l:20-cv-232 where some of the
Defendants are the Michigan Court of Appeals, and Judges William Murphy, Jane
Beckering, Joel Hoekstra, David Sawyer, Mark Boonstra, and James Redford (the
Court of Appeals Defendants), by and through their attorney, Assistant Attorney
General Kendell S. Asbenson, stated as follows:
Fed R. Civ. P. 4(e) states that effective service of process occurs
when an individual defendant is personally served or when service is
effectuated in accordance with state law.
8.

9.
Under Mich. Ct. R. 2.105(A)(1), individuals may be served by
“delivering a summons and a copy of the complaint to the defendant
personally.” Under Mich. Ct. R. 2.105(A)(2), process may be served on an
individual by “sending a summons and a copy of the complaint by registered
or certified mail” to the addressee. Since Defendants Murphy, Beckering,
Hoekstra, Sawyer, Boonstra, and Redford are individual Defendants in this
action, Plaintiff must either: 1) personally serve each individual; or 2) send

7

the summons and complaint to each individual by certified or registered
mail.
10.
In order to properly serve Defendant Michigan Court of Appeals,
Fed. R. Civ. P. 4(j) states that service must be made upon the chief executive
officer of the governmental unit or by any other manner provided under state
law. Likewise, under Mich. Ct. R. 2.105(G), the head of the public body
being sue*: must be served. In this matter, the head of the Michigan Court of
Appeals is the Chief Judge of the Michigan Supreme Court.
Appellants then filed amended Complaint and serve it upon the Michigan
Supreme Court the Honorable Bridget M. McCormack, Chief Justice pursuant to
Fed. R. Civ. P. 4(j) and Mich. Ct. R. 2.105(G). The Honorable Bridget M.
McCormack, Chief Justice confirmed service as follows:
Re: US District Court for the Western District of MI, South Division: 20CV-0232. This is in response to the papers we recently received from you.
Your papers refer to the federal court matters. Contact the U.S. District
Court for the Western District of Michigan, Southern Division with
questions Relating to a case in that court.
On March 01, 2010, when Trial Judge Butzbaugh aided and abetted NonLawyer Treasurer Witkowski to do Unauthorized Practice of Law {UPL} to
procure " imaginary Judgment against Bamaby" on August 18, 2010, without
notice to Plaintiff, Trial Judge Butzbaugh committed “fraud upon the court”, in
violation of Bamaby’s constitutional rights pursuant to the fourteenth Amendment.
The fact that [all courts] to date have relied on Judge Butzbaugh’s " imaginary
Judgment against Bamaby" utterly ignoring constitutional requirements of due
process of law is all too reminiscent of a perspective where facts do not matter but
alternative facts do, where the constitution does not matter and where the mle of

8

law is set aside &ad replaced by the rule of subjective, fact-free decision-making.
Petitioner cannot receive monetary relief for his properties which, Respondents
defrauded him of because of wrongly imposed unconstitutional State of Michigan
Judges’ imaginary Judgment and Orders and against Petitioner, which violated his
constitution under the color of law and thus, “such actions cannot be allowed to
stand in a nation of laws, not men; in a nation that cares about the constitution and
the rule of law”. Again, the confession of the ‘Quit Claim Deed demonstrates that,
Petitioner is injured by Respondents not Judge Butzbaugh’s August 18, 2010
Linchpin Foreclosure Judgment entered against Thomas or Respondents who have
no relationship to Petitioner is an [imaginary] Judgement Against Petitioner.

REASONS FOR GRANTING THE WRIT
Why should Judge Butzbaugh’s August 18, 2010, Linchpin Foreclosure
Judgment Respondents procured by Fraud, Fraud upon the Court,
Unauthorized Practice of Law (MCL 600.916; MCL 450.681), that all the
other state court’s Orders are predicated upon, which is against Mr. Thomas
Bread and or Respondents, which is an imaginary Judgment against
Petitioner is able to violate Petitioner’s constitutional rights, according to the
issuance of Michigan State Court Judgment and Orders now before this Your
Honorable United States Supreme Court on Certiorari, be allowed to
continued violates Petitioner’s constitutional rights; (US supreme Related
Cases NOs: 20- >136 and 18-89031?
Judge Butzbaugh August 18, 2010, Linchpin Foreclosure Judgment was
against the new residential property owner who took ownership on July 20, 2010,
and was deeded over to new owner on August 16, 2010, who has no relationship to
9

Petitioner. As, on October 30, 2017, Respondents confessed in Federal Case No.
l:14-cv-01279, Bamaby v. Witkowski et al. with ‘Quit Claim Deed’, that
Appellant did not lose his parcel to state court judgment but to Appellees’ unlawful
conducts, but the Federal Courts overlooked the material evidence, related Cases
NOs: 20-6136 and 18-8903. Now petitioner’s contentions are that, the issuance of
the Michigan State Court’s Judgment and Orders which are against Mr. Thomas
Bread and or Respondents who are not relatives to Petitioner should not be able to
violate his constitutional rights per the 4th,5th, and 14th and his Civil Rights 42
U.S.C. § 1983. Ultimately yet the Michigan State Court’s Orders now before this
Your Honorable United States Supreme Court on Certiorari permits, Judge
Butzbaugh’s August 18, 2010, Foreclosure Judgment against Mr. Thomas Bread
and or Respondents who has no relationship to the Petitioner and is an [Imaginary
Foreclosure Judgment against Petitioner] to violate Petitioner’s constitutional
Rights pursuant to the Fourteenth Amendment of the United States Constitution
and his Civil Rights 42 U.S.C. § 1983. Petitioner’s constitutional and civil rights
have been violated by Respondents and public officials under color of law and
thus, “such actions cannot be allowed to stand in a nation of laws, not men; in a
nation that cares about the constitution and the rule of law”.

10

Given the new issue that the State Bar of Michigan’s action was a dereliction
of its duty “...because it does not appear to be a violation of the UPL statue,
MCL 600.916, as interpreted by the Michigan Supreme Court. Consequently,
the matter has been administratively closed.”; given to it by this Your
Honorable Michigan Supreme Court which governs the practice of law and
lawyers and ha; delegated the investigation and prosecution of unauthorized
practice of law complaints and the settled fact that the State Bar of Michigan
was presented with the evidence that, Non-Lawyer Appellee-Witskowski
confessed to unauthorized practice of law in deposition, to reconsider
Appellant’s Application for Leave to Appeal?
Simply put, Michigan Supreme Court governs the practice of law and
lawyers and has delegated the investigation and prosecution of unauthorized
practice of law complaints to the State Bar of Michigan, and State Bar of Michigan
dereliction of the duty by,

. .administratively close this matter because it does not

appear to be a violation of the UPL statue, MCL 600.916, as interpreted by the
Michigan Supreme Court.”, or just referred Appellant’s UPL complaint back to the
Michigan Supreme Court. But the State Bar of Michigan gave no factual nor legal
demonstration of how when and where the Michigan Supreme Court interpreted
the UPL statue MCL 600.916, was its clear dereliction of its duty given to it by this
Your Honorable Michigan Supreme Court which governs the practice of law and
lawyers and has delegated the investigation and prosecution of unauthorized
practice of law complaints and the settled fact that the State Bar of Michigan was
presented with the evidence that, Non-Lawyer Appellee-Witskowski confessed to
unauthorized practice of law in deposition.

11

As the Nt: a-Lawyer Witskowski confessed in deposition that, Judge
Butzbaugh aided and abetted him in doing unauthorized practice of law, and
directly violated the State Bar of Michigan specific definition of UPL as follows:
“Nonlawyers may not hold themselves out as a “lawyer,” “legal counselor,” or
“attorney.”; “Nonlawyers may not give advice tailored to the particular legal
situation of another person.”, “Nonlawyers may not appear before courts or act as
intermediaries on behalf of another person regarding the other person’s legal
matter.”; “ Nonlawyers may not represent other people in court, even if the
nonlawyer has a power of attorney or is a notary public." And that, “Michigan law
does not allow a Non-lawyer to represent the interests of a partnership,
corporation, or other organization in court.” Non-lawyer Witskowski’s
unauthorized practice of law directly harms Appellant, his family, and others.
Yet, Michigan Supreme Court denied Appellant’s application for leave to
appeal the January 17, 2020, concluded,
On order of the Court, the application for leave to appeal the January 17,
2020, order of the Court of Appeals is considered, and it is DENIED,
because we are not persuaded that the questions presented should be
reviewed by this Court.
While the State Bar of Michigan was derelict in its duty to investigate and
prosecute the unauthorized practice of law complaint of Non-Lawyer Witskowski’s
confession in deposition that, he was doing unauthorized practice of law. Then,

12

Trial Judge Butzbaugh granted Non-Lawyer Witskowski Judgment arise from the
same UPL, Exhibit A3.
16 Q. So explain to me what law would permit you to conduct
17
a foreclosure proceeding when you're not an attorney?
25 A. And the judge gave me the privilege of the opportunity
1
to represent the county.
2 Q. As an attorney?
3 A. I answered your question.
4 Q. Okay.
Appellant, adhering to the Michigan Supreme Court’s determination to delegate
the prosecution of, ‘Unauthorized Practice of Law’, to the ‘State Bar of Michigan’,
filed his complaint with the ‘State Bar of Michigan’. Yet, the, ‘State Bar of
Michigan’ was derelict in its duty. Pursuant to Michigan laws MCL 600.916;
MCL 450.681 and the 14th amendment, Trial Judge Butzbaugh, yet shirked its
duty given to it by this Michigan Supreme Court.
The Michigan Supreme Court Order denied Appellant’s Leave Application,
“.. .we are not persuaded that the questions presented should be reviewed by
this Court.” And the ‘State Bar of Michigan’, “.. .because it does not appear
to be a violation of the UPL statue, MCL 600.916, as interpreted by the
Michigan Supreme Court. Consequently, the matter has been
administratively closed.”.
As such Michigan Supreme Court Order now has set a new precedence that;
[Unauthorized Practice of Law] is now the law of the State of Michigan and is no
longer illegal; which violates the precedence of this United States Supreme Court,
Rowland v. Calif. Men’s Colony, 506 U.S. 194, 201-203 (1993).

13

Appellant seeks reconsideration because of the clear conflict of interest of the
Honorable Bridget M. McCormack Chief Justice of Michigan Supreme Court
is the Chief Executive Officer of MCOA which is being Sued by Appellant in
Federal Court No. 20-CV-0232. Yet, Honorable Bridget M. McCormack Chief
Justice was among the other Justice who ruled denying Appellant’s
Application for Leave to Appeal?
The fact that, Appellant filed amended Complaint and serve it upon the
Michigan Supreme Court’s, Chief Justice pursuant to Fed. R. Civ. P. 4(j) and
Mich. Ct. R. 2.105(G) and service was confirmed:
Re: US District Court for the Western District of MI, South Division: 20CV-0232. This is in response to the papers we recently received from you.
Your papers refer to the federal court matters. Contact the U.S. District
Court for the Western District of Michigan, Southern Division with
questions relating to a case in that court.
Appellant seeks reconsideration because of the clear conflict of interest of
the Honorable B idget M. McCormack Chief Justice of Michigan Supreme Court
is the Chief Executive Officer of MCOA which is being Sued by Appellant in
Federal Court No. 20-CV-0232. Yet, the Chief Justice was among the other Justice
who ruled denied Appellant’s Application for Leave to Appeal.
Appellant seeks clarification on Court’s Order denying application for leave
to appeal: (1), “...we are not persuaded that the questions presented should be
reviewed by this Court.”, (2), The Honorable Bridget M. McCormack Chief
Justice’s Conflict of interest. (3), State Bar of Michigan dereliction of its duty.
(4), If Appellant being a Non-Lawyer can start to practice criminal law by
receiving clients MCL 450.681.
1.

Appellant seeks clarification on statement in the Court’s Order which denied

application for 1: ave to appeal,

. .because we are not persuaded that the questions

14

presented should be reviewed by this Court.” If this Your Honorable Michigan
Supreme Court is not the proper venue to review Appellant’s questions presented,
then which is the proper court? As the US District Court for the Western District
of MI, South Division sent Appellant to state court and now Appellant is before
this highest state court which said,

we are not persuaded that the questions

presented should be reviewed by this Court.” Where is the proper venue?
2.

Furthermore, this Your Honorable Michigan Supreme Court governs the

practice of law a id lawyers and has delegated the investigation and prosecution of
unauthorized practice of law complaints to the State Bar of Michigan, and State
Bar of Michigan derelict in its duty by, “...administratively close this matter
because it does not appear to be a violation of the UPL statue, MCL 600.916, as
interpreted by the Michigan Supreme Court.”, or just referred it back to Michigan
Supreme Court exercising legal maneuvering or dereliction of the duty.
3.

Appellant seeks clarifications on the conflict of interest given the fact that,

the Honorable Bridget M. McCormack, Chief Justice is the chief executive officer
over defendants and that the Chief Judge of the Michigan Supreme Court
confirmed receipt of Appellant’s Amended Complaint suing the same Defendants
the Michigan Court of Appeals, and Judges William Murphy, Jane Beckering, Joel
Hoekstra, David Sawyer, Mark Boonstra, and James Redford, who are defendants

15

against Appellant in the Federal suite 20-CV-0232. Yet, the Chief Justice was
among the other Justices who ruled against Petitioner.
4.

Appellant being a Non-Lawyer now know Non-Lawyer can begin practicing

civil law in the State of Michigan as Non-Lawyer Appellee-Witskowski did which
is now precedence. Appellant can now start practicing civil law in the State of
Michigan, [Unauthorized Practice of Law] is now the law of the State of Michigan
and is no longer illegal; receiving clients such as Corporations, LLCs, Municipals,
individuals, and family law as [Unauthorized Practice of Law] is now the law of
the State of Michigan and is no longer illegal. But Appellant being a Non-Lawyer
want to be absolutely sure that in the State of Michigan Non-Lawyer can also start
practicing criminal law as well given MCL 450.681 state, “.. .A person who
violates this section is guilty of contempt of the Supreme Court and of the circuit
court of the county in which the violation occurred...”. If a Non-Lawyer practicing
criminal law by accepting clients is also now the law of the State of Michigan as
well and is no longer illegal for a Non-Lawyer practicing civil law in Michigan?
Did Michigan State Court erred factually and legally and violated Petitioner’s
constitutional rights, when it failed to grant his ‘Emergency Declaratory
Motion to Declare Orders and Judgments Void and to Get Rid of Them on
Grounds of Unauthorized Practice of Law [UPL] and Void Orders and
Judgments”, as it has jurisdiction to do the same?
The issue raises a serious question about the legality of a law passed by the
legislature. As the Michigan foreclosure law General Property Tax Act, P.A. 206

16

of 1893, amended (MCL 211.1 et seq.) (“GPTA”) mandates that, the circuit court’s
hearing in the tax year of 2010 scheduled to be held, on March 01, 2010, before the
circuit court jud^e by a licensed attorney (MCL 600.916 and MCL 450.681),
followed by a final redemption period ending on March 31 st of that year, It was
later amended to “a circuit court hearing in February, MCL 211.78a-l
Again, the issue raise is at the core of Michigan’s law and its judicial system
itself, because Michigan law (MCL 600.916 and MCL 450.681) [prohibits]
Unauthorized Practice of Law. The legal principle here is very important to
Michigan law as, on March 01, 2010, Judge Butzbaugh aided and abetted NonLawyer Treasurer Witkowski to do Unauthorized Practice of Law to procure "non­
binding authorif Judgment" which is an imaginary Judgment against
Bamaby(without notice to Bamaby) caused Fraud upon the Court; and on
September 25, 2017 Respondent Treasurer Bret Witkowski confessed in sworn
deposition that, Judge Butzbaugh gave him, Non-Lawyer Witkowski privileges to
do UPL, to procure the "the Imaginary Judgment" against Bamaby; which they
both wittingly concealed it and contravened Michigan Laws, GPTA, and Penal
code 750.217(c), (MCL 600.916 and MCL 450.681) and caused “fraud upon the
Court”, as the Judgment was against Mr. Bread and or Respondents. The same
also is an unconstitutional deprivation of Bamaby’s Fourteenth Amendment to the
United States Constitution not to be deprived of Life, Liberty, or Property without

17

due process of law and to enjoy the equal protection of the laws of the State of
Michigan passed by the legislature.
As such, the Writ should be granted, and the court should enforce both the
laws of the State of Michigan passed by the legislature GPTA, Penal code
750.217(c) (MCL 600.916 and MCL 450.681), as only the State Bar of Michigan
has the power to grant licenses to practice law according to Michigan’s Legislature
and in keeping with the United States Supreme Court’s precedent (Rowland v.
Calif. Men’s Colony, 506 U.S. 194, 201-203 (1993
Judgment is a void judgment if court that rendered judgment lacked
jurisdiction of the subject matter, or of the parties, or acted in a manner
inconsistent with due process, Fed Rules Civ. Proc., Rule 60(b)(4), 28
U.S.C.A.; U.S.C.A. Const Amend. 5. Klugh v. U.S., 620 F.Supp. 892
(D.S.C. 1985). Milliken v. Meyer, 311 U.S. 457, 61 S.Ct. 339, 85 L.Ed. 2d
278 (1940).... or lacks inherent power to enter the particular judgment, or
an order procured by fraud, can be attacked at any time, in any court, either
directly or collaterally, provided that the party is properly before the court.
A judgment rendered in violation of due process is void in the
rendering State and is not entitled to full faith and credit elsewhere.
Pennoyer v. Neff, 95 U.S. 714, 732-733 (1878).” [World-Wide
Volkwagen Corp. v. Woodson, 444 U.S. 286 (1980)] (Exhibits AlA22) (Exhibits Bl-A7)
A void ju<: gment does not create any binding obligation. Kalb v. Feuerstein
(1940) 308 US 433, 60 S Ct 343, 84 L ed 370; Ex parte Rowland {1882) 104
U.S. 604, 26 L.Ed.
Every person is entitled to an opportunity to be heard in a court of law upon
every question involving his rights or interests, before he is affected by any
judicial decision on the question. Earle v McVeigh, 91 US 503, 23 L Ed 398.
"void" judgment, as we all know, grounds no rights, forms no defense to
actions taken thereunder, and is vulnerable to any manner of collateral attack
18

(thus here, by). No statute of limitations or repose runs on its holdings, the
matters thought to be settled thereby are not res judicata, and years later,
when the memories may have grown dim and rights long been regarded as
vested, [any disgruntled litigant may reopen old wound and once more probe
its depths. And it is then as though trial and adjudication had never been.
Fritts v. Krugh, Supreme Court of Michigan, 92 N.W.2d 604, 354 Mich. 97
(10/13/58)
“Fraud d'; stroys the validity of everything into which it enters,” Nudd v.
Burrows (1875), 91 US 426, 23 Led 286,290; particularly when “a judge himself is
a party to the fraud,”.... The same cause state Judge Butzbaugh to: (1). lack
jurisdiction over the parties (2) lack jurisdiction over the subject matter, (3) lack
inherent power to enter order or judgment, (4), and or the Judgments-orders were
either relied-on or procured by fraud/fraud-upon-the-court.

CONCLUSION
For these same reasons articulated, Petitioner respectfully requests that his
petition for certi <rari be granted and [rjeverse Michigan Court’s Orders denying
Petitioner’s ‘Emergency Declaratory Motion to Declare Orders and
Judgments Void against Petitioner and to Get Rid of Them on Grounds of
Unauthorized Practice of Law [UPL] and Void Orders and Judgments”,
against Petitioner and to award Bamaby [f]ull [d] am age.
spectfully Submitted
Dated: May 31, 2021
rTJarnaby, IrCPro Se.
19

